September 26, 2008

JO ANN FEINDT
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS

SUBJECT: Audit Report – Fiscal Year 2008 Great Lakes Area SmartPay
         Purchase Card Program (Report Number FF-AR-08-287)

This report presents the results of our audit of SmartPay Credit Card purchases by
personnel in the Great Lakes Area Office (Project Number 08BD006FF003). This audit
is part of the Fiscal Year 2008 Financial Installation Audits we announced on August 14,
2007. Click here to go to Appendix A for additional information about this audit.

Conclusion

Our audit identified internal control and compliance issues with the Great Lakes Area’s
SmartPay Purchase Card program. Purchases were not always supported with
documentation, monthly reconciliation procedures were not always followed, and
SmartPay Credit Card Program Cardholder Accountability Acknowledgment forms were
not always complete. When purchases are not made in accordance with Postal Service
procurement policies, there is an increased risk of unauthorized purchases and loss of
funds without detection. As a result, we identified monetary impact of $38,412 for
unrecoverable unsupported questioned costs,1 and non-monetary impact of $37,808 for
disbursements at risk.2 We will report these monetary impact and non-monetary
impacts in our Semiannual Report to Congress. Click here to go to Appendix B for our
calculation of unrecoverable unsupported questioned costs. Click here to go to
Appendix C for our calculation of disbursements at risk.

Purchases Were Not Always Supported with Documentation

Nine cardholders did not clearly notate the business need for continuing meetings and
training through the meal period on purchase requisitions for 62 transactions totaling
$38,412. Postal Service policy requires that all purchase requests for working meals
must clearly state the business necessity for continuing the meeting through the meal
period and indicate the benefit to be derived by the Postal Service.3 The cardholders
stated they were not aware of the policy for including a detailed justification on the
requisitions for working meals.

1
  Unrecoverable unsupported questioned costs are unrecoverable costs that are unnecessary, unreasonable, or an
alleged violation of law or regulation. These costs are not supported by adequate documentation.
2
  Disbursements at risk are disbursements made where Postal Service internal controls and processes were not
followed.
3
  Management Instruction FM-640-2001-4, Payment for Meals and Refreshments, September 24, 2001, page 2.
Fiscal Year 2008 Great Lakes Area SmartPay Purchase                                             FF-AR-08-287
 Card Program


We recommend the Vice President, Great Lakes Area Operations:

1. Instruct cardholders to document the business necessity for working meals on the
   eBuy requisition.

Management’s Comments

Management agreed with this finding and recommendation, and on September 22,
2008, the Vice President, Great Lakes Area Operations, issued a memorandum that
gave cardholders specific instructions on purchase requests for working meals and the
required documentation. However, they did not agree with the monetary impact of
$38,412 for unrecoverable unsupported questioned costs, stating that this amount was
derived from purchase requisitions for working meals that contained incomplete
justification, not because of improper expenditures. Management’s comments, in their
entirety, are included in Appendix D.

Evaluation of Management’s Comments

The U.S. Postal Service Office of the Inspector General (OIG) considers management’s
comments responsive to the recommendation, and the corrective actions should resolve
the issue identified in the finding.

With regard to management’s disagreement with our unrecoverable unsupported
questioned costs, we questioned these costs because Postal Service employees did not
provide adequate documentation. Management Instruction FM-640-2001-4 requires
that all purchase requests for working meals clearly state the business necessity for
continuing the meeting through the meal period and indicate the benefit to the Postal
Service.

Although the purchases in question may have been properly authorized and for valid
expenditures, the justification on the purchase requisition did not include the required
documentation. The OIG’s definition of unrecoverable unsupported questioned costs
includes costs that are not supported by adequate documentation. Because the
purchase requisitions did not include the required documentation in the justification, we
classified these purchases as questioned costs.

Monthly Reconciliation Procedures Needed Improvement

Ten cardholders and their approving officials did not follow monthly reconciliation
procedures for 31 of 143 credit card statements reviewed. The transactions associated
with these statements totaled $79,453. Specifically, the statements were not reconciled
by the 18th of the month for the previous month’s card activity.4 Thirteen of the 31
statements, with transactions totaling $37,808, were not signed within 60 days of the
4
 Officer Memorandum of Policy GSA Smart Pay Purchase Card Reconciliation Process Time Change,
January 4, 2008.




                                                    2
Fiscal Year 2008 Great Lakes Area SmartPay Purchase                                             FF-AR-08-287
 Card Program


statement date. The Postal Service cannot dispute transactions that are more than 60
days from the receipt of the statement of account. Cardholders and approving officials
stated the statements were not always reconciled timely because either the cardholders
or the approving officials were out of the office for extended periods. In some instances,
the cardholder did not provide the documentation to the approving official in a timely
manner.

We recommend the Vice President, Great Lakes Area Operations:

2. Reinforce Postal Service policy related to timely reconciliation of bank statements.

Management’s Comments

Management agreed with this finding, recommendation, and non-monetary impact. On
September 22, 2008, the Vice President, Great Lakes Area Operations, issued a
memorandum to reinforce Postal Service policy regarding timely reconciliation of bank
statements.

Some SmartPay Credit Card Program Cardholder Accountability
Acknowledgment Forms Were Not Complete

Eight out of 16 cardholders reviewed did not have a completed SmartPay Credit Card
Program Cardholder Accountability Acknowledgment form on file. Postal Service policy
requires that the cardholder must complete and send the original form to the Agency
Program Coordinator for retention before using his/her credit card, and the cardholder
must maintain a copy in his/her file.5 The Agency Program Coordinator for the
SmartPay Purchase Card stated she was sure all cardholders had completed the forms
but could not locate them and believes they must have been misplaced.

We recommend the Vice President, Great Lakes Area Operations:

    3. Instruct the Agency Program Coordinator to ensure all cardholders complete and
       retain the SmartPay Credit Card Program Cardholder Accountability
       Acknowledgment forms, as required.




5
 Handbook AS-709, Credit Card Policies and Procedures for Local Buying, October 2003, page 75 (updated through
October 26, 2006).




                                                      3
Fiscal Year 2008 Great Lakes Area SmartPay Purchase                          FF-AR-08-287
 Card Program


Management’s Comments

Management agreed with this finding and recommendation. On September 22, 2008,
the SmartPay Purchase Card Program coordinator for the Great Lakes Area was
instructed to ensure that SmartPay Credit Card Program Cardholder Accountability
Acknowledgment forms were completed and filed as required.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 2 and 3,
and the corrective actions should resolve the issues identified in the findings.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John Wiethop, Director, Field
Financial Central, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Susan M. Brownell
    Lynn Malcolm
    Vincent H. DeVito, Jr.
    Marie K. Martinez
    Stephen J. Nickerson
    Ron W. McDowell
    Katherine S. Banks




                                                  4
Fiscal Year 2008 Great Lakes Area SmartPay Purchase                                             FF-AR-08-287
 Card Program


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Since November 1991, the Postal Service has utilized the government-wide
Commercial Credit Card Program administered by the General Services Administration.
The current contractor is U.S. Bank, Minneapolis, Minnesota, and the card company is
VISA®. The program within the Postal Service is called the SmartPay Purchase Card
Program, which Supply Management and Finance cosponsor. The Postal Service pays
no administrative fees for the services U.S. Bank provides and earns refunds based on
the aggregate volume of Postal Service transactions. Until recently, the purchase card
was commonly referred to as the International Merchant Purchase Authorization Card
(IMPAC). This was a registered U.S. Bank trademark name, but the bank no longer
uses it.

When eBuy or other consolidated Finance-approved payment processes are not an
option, the purchase card is the primary delegated local buying authority (the authority
to buy and pay for day-to-day operational needs). Generally, a single purchase card
transaction may not be greater than $10,000.

Cardholders, approving officials, and program coordinators must follow the purchasing
guidelines for approved expenditures set by the Postal Service in Handbook AS-709,1
and various manuals, handbooks, management instructions, and locally issued
guidance. This guidance requires cardholders to maintain documentation, including
approved purchasing requests, sales and credit drafts and receipts, and delivery
documentation. In addition, guidance issued January 4, 2008, requires cardholders to
maintain documentation supporting the timely review of monthly statements by
cardholders and approving officials.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine if SmartPay Purchase Card Program
purchases were supported and complied with Postal Service policies and procedures.
To accomplish this objective, we judgmentally selected a sample of transactions for
audit using the IMPAC-Report Builder from the Accounting Data Mart for the Great
Lakes Area’s finance number. This approach resulted in a universe of 820 SmartPay
Purchase Card transactions totaling $359,656. We selected the sample of transactions
based on risk factors such as type of purchases (i.e., meals and communications) and
vendors. Specifically, we judgmentally selected transactions that were either restricted,
prohibited, weekend purchases, or for purchases of pilferable items. Using these risk
factors, we selected 294 transactions totaling $207,477 made from July 2007 through
June 2008 by 16 cardholders.


1
 Handbook AS-709, Credit Card Policies and Procedures for Local Buying, October 2003 (updated through
September 2, 2004).



                                                      5
Fiscal Year 2008 Great Lakes Area SmartPay Purchase                                                FF-AR-08-287
 Card Program


We conducted this financial audit from July through September 2008 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management officials on August 25, 2008, and included their
comments where appropriate.

We relied on data obtained from the Postal Service’s Enterprise Data Warehouse
Accounting Data Mart. We performed specific internal control and transaction tests on
this system’s data to include tracing selected purchase transactions to supporting
documentation. We used Postal Service instructions, manuals, policies, and
procedures as criteria to evaluate internal controls and data reliability. Finally, we
interviewed supervisors and employees and observed operations.

PRIOR AUDIT COVERAGE

                                                 Final                      Non-
                                  Report        Report         Monetary   Monetary
        Report Title              Number         Date           Impact     Impact             Report Results
IMPAC Card Purchases –          FF-AR-06-038   12/30/2005      $480,985         $0   Cardholders did not maintain
Chicago District                                                                     supporting documentation for
                                                                                     purchases. Purchases for
                                                                                     charitable events/sponsorships
                                                                                     and memberships did not follow
                                                                                     Postal Service policies. Further,
                                                                                     we found evidence that district
                                                                                     personnel divided purchases in
                                                                                     excess of $10,000 into smaller
                                                                                     increments to avoid spending
                                                                                     limitations, improperly used
                                                                                     money orders, and did not
                                                                                     perform required reconciliation
                                                                                     procedures. We also identified
                                                                                     weaknesses in the district’s
                                                                                     awards programs.
Fiscal Year 2007 Financial      FF-AR-07-179    6/5/2007         $8,363    $68,852   District approving officials and
Installation Audit –                                                                 cardholders did not reconcile or
International Merchant                                                               certify monthly statements and
Purchase Authorization Card –                                                        track purchases, as required. In
Gateway District – St. Louis,                                                        addition, district management did
Missouri                                                                             not monitor and track gift card
                                                                                     awards. Cardholders did not use
                                                                                     approved vendors to purchase gift
                                                                                     cards; did not maintain adequate
                                                                                     supporting documentation for
                                                                                     purchases; and did not use the
                                                                                     post-certify payment system to
                                                                                     pay invoices for Postal Service
                                                                                     issued cellular phones and home
                                                                                     Internet service.




                                                           6
Fiscal Year 2008 Great Lakes Area SmartPay Purchase                                                FF-AR-08-287
 Card Program




Fiscal Year 2007 Financial       FF-AR-08-021   11/7/2007       $73,415   $88,924   Cardholders made purchases that
Installation Audit – SmartPay                                                       were not supported, approved, or
Purchase Card Program                                                               authorized. Also, cardholders and
– Chicago District – Chicago,                                                       approving officials did not
Illinois                                                                            consistently review the accuracy
                                                                                    of monthly credit card statements
                                                                                    or maintain supporting
                                                                                    documentation.
Fiscal Year 2008 Capital Metro   FF-AR-08-270   8/22/2008       N/A        N/A      Cardholders and approving
Area SmartPay Purchase Card                                                         officials did not follow monthly
Program                                                                             reconciliation procedures.
Fiscal Year 2008 Southeast       FF-AR-08-279   9/8/2008        N/A        N/A      We did not identify any control
Area SmartPay Purchase Card                                                         and compliance issues with the
Program                                                                             Southeast Area’s SmartPay
                                                                                    Purchase Card Program.
                                                                                    Purchases were made in
                                                                                    accordance with Postal Service
                                                                                    procurement policies.
Fiscal Year 2008 Pacific Area    FF-AR-08-281    9/12/08       $20,215    $3,360    Cardholders did not always:
SmartPay Purchase Card
Program                                                                             •    Document the business
                                                                                         necessity for holding
                                                                                         separate working meetings
                                                                                         after normal business hours.
                                                                                    •    Seek or receive tax
                                                                                         exemptions on purchases.
                                                                                    •    Enter non-cash award
                                                                                         transactions into the
                                                                                         eAwards system.

                                                                                    Cardholders and approving
                                                                                    officials did not follow monthly
                                                                                    reconciliation procedures.
Fiscal Year 2008 Western         FF-AR-08-286    9/25/08       $57,712     N/A      Cardholders did not always clearly
Area SmartPay Purchase Card                                                         note on purchase requisitions the
Program                                                                             business need for continuing
                                                                                    meetings through the meal period.

                                                                                    Cardholders made purchases for
                                                                                    bottled water from a vendor that
                                                                                    was not listed on the national
                                                                                    contract list.



These reports identified various internal control and compliance issues, such as
unapproved, unsupported or unauthorized purchases. In addition, the reports identified
opportunities for strengthening and clarifying current internal controls and policies.




                                                           7
Fiscal Year 2008 Great Lakes Area SmartPay Purchase                      FF-AR-08-287
 Card Program


                 APPENDIX B: CALCULATION OF UNRECOVERABLE
                      UNSUPPORTED QUESTIONED COSTS

                                                           Number of
 Finding Title                     Description            Transactions   Amount
Purchases Were         Nine cardholders did not clearly        62         $38,412
Not Always             notate the business need for
Supported with         continuing meetings and training
Documentation          through the meal period.




                                                  8
Fiscal Year 2008 Great Lakes Area SmartPay Purchase                FF-AR-08-287
 Card Program



            APPENDIX C: CALCULATION OF DISBURSEMENTS AT RISK

                                                      Number of
  Finding Title              Description              Statements   Amount
Monthly         Cardholders and approving officials       13        $37,808
Reconciliation  did not review and reconcile bank
Procedures Were statements in a timely manner.
Not Followed




                                                  9
Fiscal Year 2008 Great Lakes Area SmartPay Purchase          FF-AR-08-287
 Card Program


                         APPENDIX D: MANAGEMENT’S COMMENTS




                                                 10
Fiscal Year 2008 Great Lakes Area SmartPay Purchase   FF-AR-08-287
 Card Program




                                                 11
Fiscal Year 2008 Great Lakes Area SmartPay Purchase   FF-AR-08-287
 Card Program




                                                 12
Fiscal Year 2008 Great Lakes Area SmartPay Purchase   FF-AR-08-287
 Card Program




                                                 13
Fiscal Year 2008 Great Lakes Area SmartPay Purchase   FF-AR-08-287
 Card Program




                                                 14
